No. 19-___

Supreme Court of the United States
BOARD OF REGENTS, THE UNIVERSITY OF TEXAS SYSTEM
AND TISSUEGEN, INC.

Applicants,
v.
BOSTON SCIENTIFIC CORPORATION,

Respondent,
PROOF OF SERVICE FOR APPLICATION FOR EXTENSION OF
TIME TO FILE PETITION FOR WRIT OF CERTIORARI

Directed To The Honorable John G. Roberts, Jr.
Chief Justice Of The United States And Circuit Justice For The United
States Court Of Appeals For The Federal Circuit
Michael W. Shore
Counsel of Record
Alfonso Garcia Chan
Samuel E. Joyner
Chijioke E. Offor
Jonathan R. Walther
SHORE CHAN DEPUMPO LLP
901 Main Street, Suite
3300 Dallas, Texas 75202
Telephone: 214-593-9110

1

CERTIFICATE OF SERVICE
I hereby certify in accordance with Rule 29 of the Rules of this Court that on
January 21, 2020, I filed or caused to be filed one original and two copies of
Applicants’ Application for Extension of Time to File Petition for Writ of Certiorari
with the Clerk of the Honorable John G. Roberts, Jr., Chief Justice of the United
States and Circuit Justice of the United States Court of Appeals for the Federal
Circuit, via personal service served or caused to be served a copy on all counsel of
record by mail.
Matthew M. Wolf

Lead Counsel

John E. Nilsson
Andrew T. Tutt
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
Telephone: (202) 942-5000
Facsimile: (202) 942-5999

Counsel for Appellee
Boston Scientific Corporation
Dated: January 21, 2020

/s/ Michael W. Shore
Michael W. Shore

2

